                                                                      E-IN-BIA-0041-2001

            United States Department of the Interior

                             Office of Inspector General
                                   Washington, D.C. 20240



                                                                            March 15, 2002

Memorandum

To:      Assistant Secretary for Indian Affairs

From:    Roger La Rouche
         Assistant Inspector General for Audits

Subject: Independent Auditors’ Report on the Bureau of Indian Affairs’ Financial
         Statements for Fiscal Years 2001 and 2000 (2002-I-0020)

        We contracted with KPMG LLP, an independent certified public accounting firm,
to audit the Bureau of Indian Affairs’ (BIA) financial statements as of September 30,
2001 and for the year then ended. The contract required that KPMG conduct its audit in
accordance with the Government Auditing Standards issued by the Comptroller General
of the United States of America; Office of Management and Budget Bulletin 01-02, Audit
Requirements for Federal Financial Statements; and the General Accounting
Office/President’s Council on Integrity and Efficiency Financial Audit Manual. The
Office of Inspector General (OIG) is responsible for the opinion on the balance sheet and
related notes for fiscal year 2000.

        In connection with the contract, we monitored the progress of the audit at key
points and reviewed KPMG’s report and related working papers and inquired of their
representatives. Our review, as differentiated from an audit in accordance with
Government Auditing Standards, was not intended to enable us to express, and we do not
express, opinions on BIA’s financial statements or on conclusions about the effectiveness
of internal controls or on conclusions about compliance with laws and regulations.
KPMG is responsible for the auditors’ report on the fiscal year 2001 financial statements
(see Attachment 1) and for the conclusions expressed in the report. However, our review
disclosed no instances where KPMG did not comply in all material respects with
Government Auditing Standards.

        In its audit report dated January 21, 2002, KPMG stated that in its opinion the
BIA’s financial statements presents fairly, in all material respects, the financial position
of the BIA as of September 30, 2001 and its net cost of operations, changes in net
position, budgetary resources, and reconciliation of net cost of operations to budgetary
obligations for the year then ended in conformity with accounting principles generally
accepted in the United States of America. The OIG in its report (Attachment 2) stated in
its opinion, the consolidated balance sheet presents fairly, in all material respects, the
financial position of the BIA as of September 30, 2000, in conformity with accounting
principles generally accepted in the United States of America.

        KPMG found seven reportable weaknesses, three of which are considered
material weaknesses, related to financial reporting. With regard to compliance with laws
and regulations, KPMG found BIA to be noncompliant with portions of the Federal
Financial Management Improvement Act. Specifically, BIA’s financial management
systems did not substantially comply with Federal financial management systems
requirements, applicable accounting standards and the U.S. Standard General Ledger at
the transaction level. In addition, KPMG found that BIA did not comply with the Debt
Collection Improvement Act of 1996.

        BIA concurred with all 8 recommendations and indicated corrective action would
be taken. Based on BIA’s response we consider all 8 recommendations resolved but not
implemented. The recommendations will be referred to the Assistant Secretary for
Policy, Management and Budget for resolution and tracking of implementation.

         Section 5(a) of the Inspector General Act (5 U.S.C. App. 3) requires the OIG to
list this report in its semiannual report to the United States Congress.

        The Independent Auditors’ Report is intended for the information of the
management of BIA, the Office of Management and Budget, and the U.S. Congress. The
report, however, is a matter of public record, and its distribution is not limited.


Attachments (2)
                               Attachment 1




       A COPY OF THE

INDEPENDENT AUDITOR’S REPORT

IS ON THE PAGES THAT FOLLOW.
            2001 M Street, NW
            Washington, DC 20036




                             INDEPENDENT AUDITORS’ REPORT

Assistant Secretary for Indian Affairs and Inspector General
U.S. Department of the Interior:

We have audited the accompanying consolidated balance sheet of the Bureau of Indian Affairs (BIA) as
of September 30, 2001, and the related consolidated statements of net cost, changes in net position, and
combined statement of budgetary resources and financing (hereinafter referred to as “financial
statements”), for the year then ended. The objective of our audit was to express an opinion on the fair
presentation of these financial statements. These financial statements are the responsibility of the
management of BIA. In connection with our audit, we also considered BIA’s internal control over
financial reporting and tested BIA’s compliance with certain provisions of applicable laws and
regulations that could have a direct and material effect on its financial statements.

Summary

As stated in our opinion on the financial statements, we concluded that BIA’s financial statements as of
and for the year ended September 30, 2001, are presented fairly, in all material respects, in conformity
with accounting principles generally accepted in the United States of America.

Our consideration of internal control over financial reporting resulted in identifying the following
reportable conditions:

    A.   Controls over information technology systems
    B.   Controls over financial reporting and oversight
    C.   Controls over processing Trust transactions
    D.   Controls over property, plant and equipment
    E.   Controls over year-end accruals
    F.   Controls over unbilled/reimbursable accounts receivable
    G.   Controls over Treasury reporting

We consider reportable conditions A, B and C discussed above, to be material weaknesses.

Our tests of compliance with certain provisions of laws and regulations, exclusive of those referred to in
the Federal Financial Management Improvement Act (FFMIA) of 1996, disclosed instances of
noncompliance with laws and regulations that are required to be reported under Government Auditing
Standards issued by the Comptroller General of the United States, and Office of Management and Budget
(OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial Statements.



                                                   28
In addition, our tests of compliance with FFMIA section 803(a) requirements disclosed instances where
the BIA consolidated financial management systems did not substantially comply with Federal financial
management systems requirements, applicable Federal accounting standards, and the U.S. Standard
General Ledger at the transaction level.

The following sections discuss our opinion on the BIA financial statements, our consideration of the
internal control over financial reporting, our tests of compliance with certain provisions of applicable
laws and regulations, and management’s and our responsibilities.

Opinion on the financial statements

We have audited the accompanying consolidated balance sheet of the BIA as of September 30, 2001, and
the related consolidated statement of net cost, consolidated statement of changes in net position,
combined statement of budgetary resources and combined statement of financing for the year then ended.
These financial statements are the responsibility of BIA management.

In our opinion, the financial statements referred to above, present fairly, in all material respects, the
financial position of BIA as of September 30, 2001, and its net cost of operations, changes in net position,
budgetary resources, and reconciliation of net cost of operations to budgetary obligations for the year then
ended, in conformity with accounting principles generally accepted in the United States of America.

The information in the Management Discussion & Analysis, Required Supplemental Stewardship
Information and Required Supplemental Information sections are not a required part of the financial
statements, but is supplementary information required by the Federal Accounting Standards Advisory
Board or OMB Bulletin No. 97-01, Form and Content of Agency Financial Statements, as amended. We
have applied certain limited procedures, which consisted principally of inquiries of management
regarding the methods of measurement and presentation of this information. However, we did not audit
this information and, accordingly, we express no opinion on it.

Internal control over financial reporting

Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be reportable conditions. Under standards issued
by the American Institute of Certified Public Accountants, reportable conditions are matters coming to
our attention relating to significant deficiencies in the design or operation of the internal control over
financial reporting that, in our judgment, could adversely affect BIA’s ability to record, process,
summarize, and report financial data consistent with the assertions by management in the financial
statements.

Material weaknesses are reportable conditions in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that misstatements, in
amounts that would be material in relation to the financial statements being audited, may occur and not be
detected within a timely period by employees in the normal course of performing their assigned
functions. Because of inherent limitations in internal control, misstatements, due to error or fraud may
nevertheless occur and not be detected.




                                                    29
We noted certain matters involving internal control over financial reporting and its operation that we
consider to be reportable conditions. We believe that the following reportable conditions are material
weaknesses:

       A. Controls over information technology systems

       Weaknesses in BIA’s computer systems raise concerns about the integrity of information being
       reported on the financial statements. Although BIA has taken preliminary steps in establishing a
       formal security program, BIA has not implemented information systems security policies or
       procedures to effectively control and protect information systems, programs and data supporting
       BIA operations and assets and has failed to meet minimum information technology (IT) security
       requirements. Some of the identified weaknesses have been previously reported, and persist
       despite developed corrective action plans. Weaknesses were identified in the following IT
       control areas:

       1. Entity-wide Security Program - BIA did not have in place an effective security management
          structure that provides a framework and continuing cycle of activity for managing risk,
          developing security policies, assigning responsibilities, and monitoring the adequacy of the
          entity's computer-related controls. While BIA recently prepared a security program, it has
          not been implemented.

       2. Segregation of Duties - BIA has not ensured proper segregation of duties through its policies,
          procedures, and organizational structure such that one individual cannot control key aspects
          of computer-related operations and thereby conduct unauthorized actions or gain
          unauthorized access to assets or records without detection.

       3. Access Controls - BIA has not established access controls that limit or detect inappropriate
          access to computer resources, thereby increasing the risk of unauthorized modification, loss,
          or disclosure of electronic data. Various access control weaknesses consisted of: network
          configuration management weaknesses, password management, other logical access
          weaknesses, and physical controls over the BIA data center could be improved.

       4. Application Software Development and Change Controls – BIA has not established
          application software development and change controls that prevent unauthorized access to
          programs or modifications to an existing program from being implemented.

       5. System Software Controls – BIA has not established system software controls that limit and
          monitor access to the programs and sensitive files that control the computer hardware and
          secure applications supported by the system.

       6. Service Continuity – BIA has not established controls to ensure that critical operations
          continue without interruption or are promptly resumed and critical and sensitive data are
          protected, should unexpected events occur.

       Recommendation
       We recommend that BIA implement an Entity-wide Security Program to fully comply with OMB
       Circular A-130, Management of Federal Information Resources. Employee roles and
       responsibilities should be reviewed and restructured to achieve an higher degree of segregation of
       duties in computer-related operations. The BIA should improve its security management
       structure by taking immediate steps to secure the network vulnerabilities and access control
       deficiencies.


                                                  30
We also recommend that application software development and change controls and system
software controls be improved to prevent unauthorized program modification or access to read,
modify or delete critical or sensitive information and programs.

Management’s Response
BIA concurs with this recommendation.

B. Controls over Financial Reporting and Oversight

The financial accounting and reporting environment at BIA is not operating as effectively and
efficiently as necessary to fulfill the numerous duties necessary to support BIA’s complex
organization. The managerial and administrative deficiencies listed below describe circumstances
in which the general control environment needs improvement:

1. Fragmented accounting infrastructure - The existing organization structure creates inefficient,
   duplicative administrative duties and hinders the ability to administer policy effectively. The
   accounting policies and procedures for BIA are created by the Office of Management and
   Administration (OMA). However, the Regional Offices, and other Bureau offices report
   directly to the Commissioner of Indian Affairs or the Assistant Secretary for Indian Affairs.
   OMA does not have sufficient authority to establish, implement, administer and manage
   accounting processes. This situation also results in a lack of communication/enforcement of
   financial policies and procedures and inadequate financial management oversight within the
   Bureau.

2. Vacancy in key financial leadership positions - Several key management positions are vacant,
   resulting in reassignment of critical management functions to existing employees who
   already have full workloads. This creates an environment where policies, procedures and
   controls could be circumvented and not timely discovered with ordinary review and
   supervision.

3. Heavy reliance on contracted accounting personnel - BIA relies heavily on contracted
   personnel using a service organization to perform critical accounting functions. The current
   agreement with BIA’s contracted service organizations such as the National Business Center
   (NBC), does not allow for adequate management oversight and review of their work, nor
   does it allow for the establishment of performance, quality and accuracy related measures by
   which to monitor and evaluate the performance of the contractor.

4. Inadequate training of personnel - BIA personnel do not receive adequate training and
   support to perform all assigned duties, including performing account analyses and
   reconciliations between accounts, subsidiary records, and financial statements routinely
   throughout the year to identify and correct errors or inaccuracies.

5. Lack of ongoing account analyses and reconciliations – During fiscal year 2001, a number of
   account analyses, reconciliations, and elimination procedures were performed after the close
   of the fiscal year, resulting in numerous adjustments to produce accurate financial
   information.

Recommendation
We recommend that BIA fill the vacant position of Chief Accountant as soon as reasonably
possible with a professional who is knowledgeable of federal government accounting and
reporting, has experience in establishing and implementing accounting processes, procedures and
internal controls and has experience managing accounting staff personnel.

                                           31
This professional, through OMA leadership, must be given sufficient authority to hire, supervise
and manage BIA personnel who have accounting responsibilities in other divisions and regions
within BIA. Once hired, the Chief Accountant and OMA leadership should focus on process
redesign, efficiency, controls, and appropriate supervision of processes. In addition, training
programs should be established for all accounting personnel.

We recommend that management implement a redesigned organizational structure that empowers
OMA leadership to establish, administer, manage and enforce compliance with accounting
policies and procedures in a consistent manner throughout the entity. This recommendation
includes any procedures performed by BIA’s contracted personnel. We also recommend that
BIA consider consolidating some key accounting functions within the BIA Virginia offices to
better control and manage processes that could materially affect the financial statements.

We recommend that the Bureau perform routine reconciliations periodically throughout the fiscal
year. In fiscal year 2002, compliance with OMB Bulletin No. 01-09 will require BIA to prepare
and submit semi-annual financial statements. This implies that reconciliations will be performed
at least semi-annually to produce the required interim financial reports. During fiscal year 2003,
OMB 01-09 requires quarterly financial reports, and reconciliations should be performed at least
quarterly.

Management’s Response
BIA concurs with this recommendation.

C. Controls over processing Trust transactions

The U.S. Congress has designated the Secretary of the Interior (Secretary) as a primary fiduciary
with responsibility for monetary resources held in trust on behalf of American Indian Tribes,
Individual Indians, and Other Special Trust Funds. The Secretary carries out this fiduciary
responsibility through the Office of Trust Funds Management (OTFM) in coordination with BIA.

BIA performs a critical role in the initial input and subsequent changes to trust accounting data,
in its various regional and agency offices. In this fiduciary capacity, BIA performs a variety of
functions related to trust transactions. We identified weaknesses in the following areas:

1. Segregation of Duties – In agency office locations, BIA has not ensured the proper
   segregation of duties with regard to processing trust transactions. Specifically, in some
   locations an individual agency employee has the ability to initiate lease agreements, generate
   annual billings for property leases, collect payment for leases, send change order instructions
   to OTFM to establish Individual Indian Money (IIM) accounts, direct name changes of the
   monetary recipients, enter IIM account management codes, and prepare journal vouchers to
   direct OTFM of whose account present or future collections should be posted.

2. Related Party Transactions – At many agency offices, there is only a verbal policy in place
   regarding the processing of transactions for related parties. Agency employees who have the
   authority to initiate, bill, collect, open IIM accounts, and change account holder distribution
   instructions also have the same authority for accounts of related parties.

3. Probate Backlog - In one regional office location, probate orders have not been timely
   recorded into IRMS. The probate backlog at this location is estimated to be over one year
   old. This results in the potential for inaccurate distributions of lease income to Tribal and
   IIM account holders.


                                           32
        4. Appraisal compacts – One of the key elements in performing realty trust transactions is the
           requirement of obtaining appraisals for realty transactions. BIA has a fiduciary duty to land
           title owners and monetary property recipients (e.g., life estate holders) to establish the fair
           value of property transactions, including establishing the fair value of property leases, before
           entering into lease agreements or sales transactions on behalf of the owners.

            Currently the Self Governance Act allows the appraisal function to be compacted to Tribes,
            who represent the majority of the named parties involved in realty transactions. As a result,
            transactions are consummated based on prices established or influenced by the eventual
            beneficial owners of the property. Controls are not in place to ensure that the fair value of
            property transactions are established by parties independent of the transaction.

        5. Untimely deposits - At various agency locations, we noted certain instances in which trust
           money receipts were not timely forwarded to regional offices due to delays by BIA
           personnel. Some of these delays occurred at agency locations where OTFM personnel reside,
           yet these personnel were not responsible for the collection process. Other delays occurred at
           agency locations occupied by BIA personnel only.

        While trust funds and assets are not accounted for on BIA’s financial statements, these internal
        control weaknesses may result in a potential liability to the U.S. Government, the Department of
        Interior and BIA, who are currently the subject of litigation.

        Recommendation
        We recommend that BIA improve the overall trust transactions processing environment by
        establishing, implementing, and monitoring policies and procedures addressing segregation of
        duties issues and processing transactions involving related parties. We recommend that BIA
        require a person with knowledge of probate to approve change orders prior to being sent to
        OTFM. This could be accomplished by creating a position at the applicable regional office in the
        Land Title and Records Office (LTRO) to approve change orders or by creating a centralized
        approving center that has access to LTRO files. We recommend that resources be directed
        toward eliminating the existing probate backlog, and toward maintaining timely processing of
        future probate transactions. In the instances where the appraisal function is lawfully compacted
        to tribes through the Self Governance Act, we recommend that independent appraisals be
        performed by BIA for these transactions to ensure the fairness of transaction pricing to both the
        government and the purchaser. We further encourage the BIA to work with the OTFM or other
        appropriate officials to agree on and implement procedures to prevent the untimely forwarding of
        Indian trust receipts to regional offices by BIA personnel.

        Management’s Response
        BIA concurs with this recommendation.

We noted the following reportable conditions, which are not considered to be material weaknesses:

        D. Controls over property, plant and equipment

        BIA did not develop and implement policies and procedures to ensure that its property, plant and
        equipment accounts were stated in accordance with Federal Accounting Standards.




                                                    33
Specifically, BIA did not adequately define the point at which assets should be placed in-service;
did not maintain adequate supporting documentation; timely and accurately record acquisitions
and disposals; did not record depreciation expense based on asset useful lives that are consistent
with established policy; did not correct errors timely; and did not identify and record impairments
of assets.

Recommendation
We recommend that BIA develop and implement policies and procedures for establishing
consistent placed-in-service criteria, requiring adequate supporting documentation be retained
including the requirement of completed receiving reports, recording acquisitions, applying useful
lives established by BIA policy, correcting errors on a timely basis, and identifying and recording
impairments.

Management’s Response
BIA concurs with this recommendation.

E. Controls over year-end accruals

BIA did not effectively enforce policies and procedures for estimating year-end accruals for
expenditures disbursed in accordance with Public Law 93-638.

Recommendation
We recommend that BIA clearly and effectively communicate policies and procedures for
establishing year-end accrual procedures regarding Tribal requests to receive appropriated and
available funds obligated through the P638 process.

Management’s Response
BIA concurs with this recommendation.

F. Controls over unbilled/reimbursable accounts receivable

BIA did not properly code, review, and monitor expenses incurred which were associated with
reimbursable agreements. The recording errors incurred throughout the year resulted in a
misstatement of the year-end balance on reimbursable agreements, necessitating a final
adjustment to correctly state the year-end balance. BIA does not adequately train and monitor the
individuals responsible for recording transactions coded for reimbursement.            Although
management reviews the expenses, the reviews are not sufficient or detailed enough to detect
many of the errors. In addition, unallowable expenses if posted to reimbursable agreements may
result in inappropriate recognition of revenue and could be denied reimbursement in accordance
with the agreement. Recording of potentially unallowable expenses could also result in
inaccurate internal reporting at the project, program, or fund level.

Recommendation
We recommend that BIA provide additional training to individuals responsible for recording
transactions associated with reimbursable agreements. Monthly reconciliations of expenses and
preparation of reimbursement requests should be prepared simultaneously. If there is an advance
for a particular program, employees should place greater emphasis on tracking the balance of the
advance and reducing the amount as revenue is earned. Also financial management should
establish sufficient processes, controls and oversight to ensure compliance with the individual
agreements and identification of potentially unallowable expenses.



                                            34
        Management’s Response
        BIA concurs with this recommendation.

        G. Controls over Treasury reporting

        BIA is not in compliance with U.S. Treasury reporting requirements. The SF-224 and other
        required reporting schedules were not prepared in compliance with the Treasury Financial
        Service Manual. In addition, we noted untimely reconcilations and account analysis of Treasury
        reports, inadequate clearing of differences between Treasury and BIA records and a general lack
        of training and understanding of the requirements of the Treasury Financial Service Manual.
        This situation may be, in-part, due to a change in personnel who were responsible for these
        functions during the year.

        Recommendation
        We recommend that the various forms and reports required by the Treasury be prepared
        accurately and timely during the year by personnel who have been appropriately trained to
        perform those functions. We also recommend that BIA consider strengthening its policies and
        procedures in this area to include specific examples and regular, timely supervision and review of
        staff work.

        Management’s Response
        BIA concurs with this recommendation.

A summary of the status of prior year reportable conditions is included as Exhibit I. We also noted other
matters involving internal control over financial reporting and its operation that that we have reported to
the management of BIA in a separate letter dated January 21, 2002.

Internal controls over required supplementary information and performance measures

We noted certain significant deficiencies in internal control over Required Supplementary Information
discussed in the following paragraph (I.2) that, in our judgment, could adversely affect BIA’s ability to
collect, process, record, and summarize Required Supplementary Information.

Compliance with laws and regulations

The results of our tests of compliance with the laws and regulations described in the Responsibilities
section of this report, exclusive of the FFMIA, disclosed one instance of noncompliance that is required
to be reported herein under Government Auditing Standards or OMB Bulletin No. 01-02, Audit
Requirements for Federal Financial Statements.

        H. Debt Collection Improvement Act of 1996

        BIA did not timely transfer all eligible accounts receivable delinquent for more than 180 days to
        the U.S. Treasury for collection or offset.

The results of our test of compliance with other laws and regulations, exclusive of FFMIA, disclosed no
their instances of noncompliance that are required to be reported under Government Auditing Standards
or OMB Bulletin No. 01-02, Audit Requirements for Federal Financial Statements.

The results of our tests of FFMIA disclosed instances, described below, where BIA’s financial
management systems did not substantially comply with the Federal financial management systems
requirements, applicable accounting standards, and U.S. Standard General Ledger at the transaction level.

                                                    35
I.   FFMIA

FFMIA requires that each Federal agency shall implement financial management systems that
comply substantially with (1) Federal financial management systems; (2) applicable Federal
accounting standards; and (3) the U.S. Standard General Ledger at the transaction level. Our
findings in each area are described below:

1.      EDP General Controls - We noted matters which we believe indicate that ineffective
general controls exist over the BIA’s automated information systems, and are significant
departures from certain requirements of OMB Circulars A-127, Financial Management Systems,
and A-130, Management of Federal Information Resources, and were therefore instances of
substantial non-compliance with the Federal financial management systems requirements under
the Federal Managers’ Financial Integrity Act of 1996.

As discussed in the section of our report entitled Controls over Information Technology Systems
in our Internal Control over Financial Reporting, BIA needs to improve its EDP security and
general control environment. BIA has not finalized and communicated an entity-wide security
plan; has not configured the operating systems to provide optimal security and protection and to
limit access to sensitive datasets and libraries; has not fully established system software controls
that limit and monitor access to the programs and sensitive files; has not fully developed or
segregated procedures for controlling changes over application software; and needs to improve
maintenance of its off-site storage records. As a result, BIA does not substantially comply with
the security and general EDP control requirements of OMB Circular A-130, Management of
Federal Information Resources.

2.    Federal Accounting Standards - We noted matters which we believe constitute
noncompliance with presentation and disclosure requirements of OMB Bulletin No. 97-01, Form
and Content of Agency Financial Statements, as amended, regarding Heritage Assets and the
Management Discussion and Analysis as described below:

     a) BIA maintains approximately 4 million objects of Museum Property, which represent
     heritage assets. BIA also has 468 units in a Historical Property collection, which represent
     multi-use heritage assets as they are operational and have historical significance. BIA
     currently has not accounted for, catalogued, and assessed the condition of all physical units of
     their museum property.

     b) BIA reports its stewardship investment in Human Capital (investment in Indian
     education) based on obligations rather than expended amounts, and does not present four
     years of historical data based on expenditures.

     c) BIA did not disclose the acreage of stewardship land which it administers.

     d) BIA’s discussion of performance goals lacks sufficient relationship to major goals and
     objectives in the agency's strategic and performance plans. Also, some of the performance
     goals results do not clearly describe planned and actual performance. At least one
     responsibility segment has consistently not reported GPRA results in time for inclusion in the
     Bureau’s accountability report. The overview section also omitted the required reporting
     elements of forward looking information and analysis of current year financial performance.

     e) We also noted matters that we believe constitute noncompliance with Federal Accounting
     Standards that have been reported as material weaknesses in our report section on Internal
     Control Over Financial Reporting.

                                             36
        3.       Standard General Ledger - BIA is not in complete compliance with U. S. Standard
        General Ledger financial recording requirements. The majority of BIA’s accounts receivable
        transactions are recorded into subsidiary systems that do not interface with FFS, BIA’s general
        ledger. These transactions are then periodically recorded at a summary level into BIA’s general
        ledger. While some of these subsidiaries systems data are recorded at a summary level monthly,
        at least one is recorded at a summary level annually.

        Recommendations
        We recommend that in fiscal year 2002, the OMA devote resources toward efforts to:

                Improve the automated information systems environment.

                Improve financial statement preparation, presentation and disclosures to comply with the
                CFO Act and OMB Bulletins. Improvement would be facilitated using the GAO/PCIE
                Financial Audit Manual checklist issued in July 2001.

                Address the control weaknesses in our report section on Internal Control Over Financial
                Reporting.

                BIA should continue to catalog heritage assets and make condition assessments to ensure
                reporting is complete and accurate. We recommend that additional funding be obtained
                and directed toward this effort. Agreements with non-federal repositories regarding
                taking complete inventories, including condition assessments, of such items should be
                developed and executed.

                We recommend that BIA investigate alternatives for recording accounts receivable
                transactions which will enable the Bureau to process transactions more efficiently and
                maintain compliance with FFMIA.


Responsibilities

Management’s Responsibility

The Government Management Reform Act (GMRA) of 1994 requires a Federal agency to report annually
to Congress on its financial status and any other information needed to fairly present its financial position
and results of operations. To meet the GMRA reporting requirements, BIA prepares annual financial
statements.

Management is responsible for:

        Preparing the financial statements in conformity with accounting principles generally accepted in
        the United States of America;
        Establishing and maintaining internal controls over financial reporting; required supplementary
        stewardship information and performance measures; and
        Complying with laws and regulations, including FFMIA.

In fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of internal control policies.




                                                     37
Auditors’ Responsibility

Our responsibility is to express an opinion on the fiscal year 2001 financial statements of BIA based on
our audit. We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States, and OMB Bulletin No. 01-02. Those
standards and OMB Bulletin No. 01-02 require that we plan and perform the audits to obtain reasonable
assurance about whether the financial statements are free of material misstatement.

An audit includes:

        Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
        statements;
        Assessing the accounting principles used and significant estimates made by management; and
        Evaluating the overall financial statement presentation.

We believe that our audit provides a reasonable basis for our opinion.

In planning and performing our fiscal year 2001 audit, we considered BIA’s internal control over
financial reporting by obtaining an understanding of BIA’s internal control, determining whether internal
controls had been placed in operation, assessing control risk, and performing tests of controls in order to
determine our auditing procedures for the purpose of expressing our opinion on the financial statements.
We limited our internal control testing to those controls necessary to achieve the objectives described in
OMB Bulletin No. 01-02 and Government Auditing Standards. We did not test all internal controls
relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of
1982. The objective of our audit was not to provide assurance on internal controls over financial
reporting. Consequently, we do not provide an opinion on internal control over financial reporting.

As required by OMB Bulletin No. 01-02, we considered BIA’s internal control over Required
Supplementary Stewardship Information by obtaining an understanding of BIA’s internal control,
determining whether these internal controls had been placed in operation, assessing control risk, and
performing tests of controls. Our procedures were not designed to provide assurance on internal control
over Required Supplementary Stewardship Information and, accordingly, we will not provide an opinion
on such controls.

As further required by OMB Bulletin No. 01-02, with respect to internal control related to performance
measures determined by management to be key and reported in the Management Discussion and
Analysis, we obtained an understanding of the design of significant internal controls relating to the
existence and completeness assertions. Our procedures were not designed to provide assurance on
internal control over performance measures and, accordingly, we will not provide an opinion on such
controls.

As part of obtaining reasonable assurance about whether BIA’s fiscal year 2001 financial statements are
free of material misstatement, we performed tests of BIA’s compliance with certain provisions of laws
and regulations, noncompliance with which could have a direct and material effect on the determination
of financial statement amounts, and certain provisions of other laws and regulations specified in OMB
Bulletin No. 01-02, including certain provisions referred to in FFMIA. We limited our tests of
compliance to the provisions described in the preceding sentence, and we did not test compliance with all
laws and regulations applicable to BIA. Providing an opinion on compliance with laws and regulations
was not an objective of our audit, and, accordingly, we do not express such an opinion.



                                                    38
Under OMB Bulletin No. 01-02 and FFMIA, we are required to report whether the BIA financial
management systems substantially comply with (1) Federal financial management systems requirements,
(2) applicable Federal accounting standards, and (3) the United States Government Standard General
Ledger at the transaction level. To meet this requirement, we performed tests of compliance with FFMIA
section 803(a) requirements.

Distribution

This report is intended for the information and use of Department of the Interior and BIA management,
Department of the Interior’s Office of the Inspector General, OMB and the U.S. Congress, and is not
intended to be and should not be used by anyone other than these specified parties.




January 21, 2002




                                                 39
                                                                                                   Exhibit I
                                      BIA
            Summary of the Status of Prior Year Reportable Conditions
                              September 30, 2001

Prior
Year                    Condition and Comment Excerpt                                     Status
Report
Ref
A        BIA needs improved controls over Construction-in-Progress           Corrected.
         account. BIA did not develop adequate policies and procedures
         to ensure the inclusion of all valid construction-in-progress
         (CIP) general ledger control accounts and subsidiary ledger, the
         timely transfer of completed projects to the appropriate fixed
         asset accounts, or the removal of invalid projects and project
         costs from the account and subsidiary ledger.
B        BIA needs improved controls over Property, Plant and                Portion of the prior year
         Equipment. BIA did not develop and implement policies and           comment repeated in FY 2001 as
         procedures to ensure that its property, plant and equipment         “D” in the report on Internal
         accounts were stated in accordance with Federal accounting          Control over Financial Reporting
         standards. Specifically, BIA did not adequately inventory its       above
         property, plant and equipment; timely and accurately record
         acquisitions and disposals; maintain adequate supporting
         documentation; timely transfer completed projects to the
         appropriate account; timely and accurately record depreciation
         expense; or timely identify and correct errors in its Fixed Asset
         Subsystem.

C        BIA needs improved controls over Budgetary accounts. BIA            Corrected.
         did not develop and implement policies and procedures to
         ensure that transactions were timely deobligated (cleared) when
         completed or inactive, accurately recorded, and adequately
         supported in accordance with Federal accounting standards.
         BIA also did not develop and implement policies and
         procedures to ensure that adjustments made to Hyperion and
         FACTS II trial balance information were properly recorded and
         adequately supported.

D        BIA needs improved controls over Financial Information              Portion of the prior year
         Integrity Reviews. BIA did not develop and implement a              comment repeated in FY 2001 as
         financial information integrity review, reconciliation, and         “B” in the report on Internal
         correction process that ensured the timely identification and       Control over Financial Reporting
         correction of errors and invalid transactions in its general and    above
         subsidiary ledgers, listings, and reports at September 30, 2000.
E        BIA needs improved controls over Financial Systems and              Portion of the prior year
         Reporting. BIA did not develop and implement policies and           comment repeated in FY 2001 as
         procedures that ensured the review, analysis, and reconciliation    “B” in the report on Internal
         of information in its financial systems and reports on a timely     Control over Financial Reporting
         basis throughout the year. The process used to prepare the          above
         financial statements required numerous manual account
         adjustments. We believe that the extent and magnitude of
         account adjustments required at year-end demonstrate that the
         controls in place during the fiscal year were not operating
         efficiently or effectively.


                                                  40
F   BIA needs improved controls over Year-End Accruals. BIA              Corrected. New comment
    did not establish and implement policies and procedures for          regarding year-end accruals
    estimating year-end accruals for expenditures representing           documented as “E” in the report
    goods or services received but not paid as of September 30,          on Internal Control over
    2000.                                                                Financial Reporting above

G   BIA needs improved controls over Automated Information               Repeated in FY 2001 as “A” in
    Systems. BIA controls over its Operations Service Center             the report on Internal Control
    automated information systems did not comply with OMB                over Financial Reporting above
    Bulletin 98-08, and BIA had not fully implemented the
    recommendations made in our audit reports.
H   BIA needs improved controls over Accounts Receivable and             Repeated in FY 2001 as “F” in
    Related Advance accounts. BIA did not develop and                    the report on Internal Control
    implement adequate procedures to ensure that all recorded            over Financial Reporting above
    receivable balances were adequately supported; all recorded
    receivable balances and related advance balances were valid,
    accurate, and properly classified; and all receivable transactions
    were timely entered into the appropriate general and subsidiary
    ledgers.

I   BIA needs improved controls over Deferred Maintenance                Corrected
    Management and Reporting. BIA did not establish formal
    policies and procedures for periodically assessing the condition
    of its assets and for computing, compiling, and reporting
    estimates of deferred maintenance. BIA also needed stronger
    supervisory and monitoring controls over deferred maintenance
    to ensure that deferred maintenance estimates were accurate,
    complete, and supported by adequate documentation.

J   BIA needs improved controls over Stewardship &                       Portion of the prior year
    Performance Measure Reporting. BIA did not implement                 comment repeated in FY 2001 as
    stewardship and performance measure management systems, as           “J” in the report on Internal
    required by federal accounting standards and the Government          Control over Financial Reporting
    Performance and Results Act. BIA omitted the reporting of            above
    some assets and reported incomplete data on other assets.

K   BIA needs improved controls over Compliance with Laws
    and Regulations. The results of our tests of compliance with
    the laws and regulations disclosed instances of noncompliance
    with the following laws and regulations:
             Chief Financial Officers Act of 1990;
             Debt Collection Improvement Act of 1996;                    Corrected
             OMB Circular A-11;                                          Repeated in FY 2001 “H”
             Prompt Pay Act;                                             Corrected
             The Federal Financial Management Improvement Act;           Corrected
             Financial System Requirements; and                          Repeated in FY 2001 “J”
             Managerial Cost Accounting Management and
             Reporting.                                                  Corrected




                                             41
                                                                               Attachment 2

            United States Department of the Interior

                             Office of Inspector General
                                   Washington, D.C. 20240




                         Independent Auditors’ Report

To:        Assistant Secretary for Indian Affairs

Subject:   Bureau of Indian Affairs’ Financial Statements for Fiscal Year 2000

        We have audited the Bureau of Indian Affairs’ (BIA) consolidated balance sheet
and related notes as of September 30, 2000. The objective of our audit was to express an
opinion on the fair presentation of the consolidated balance sheet. This financial
statement is the responsibility of the BIA, and our responsibility is to express an opinion,
based on our audit, on this financial statement.

        We conducted our audit in accordance with the auditing standards generally
accepted in the United States of America; the standards for financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States;
and with Office of Management and Budget (OMB) Bulletin No. 01-02, Audit
Requirements for Federal Financial Statements. These standards and OMB Bulletin No.
01-02 require that we plan and perform our audit to obtain reasonable assurance as to
whether the accompanying balance sheet is free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures
contained in the consolidated balance sheet and the accompanying notes. An audit also
includes assessing the accounting principles used and the significant estimates made by
management, as well as evaluating the overall balance sheet presentation. We believe
that our audit of the balance sheet provides a reasonable basis for our opinion.

        In our opinion, the consolidated balance sheet referred to above presents fairly, in
all material respects, the financial position of the BIA as of September 30, 2000, in
conformity with accounting principles generally accepted in the United States of
America.

        As described in Note 14, BIA has restated its FY 2000 consolidated balance sheet.
These revisions were made to: (a) improve the accounting for loans and loan guarantees,
(b) correct the accounting for Federal-Aid Highways funding, (c) correct unexpended
appropriations in the construction account, and (d) record an allowance for a receivable
for which collection is doubtful.
         In our report dated May 11, 2001, we expressed an opinion that BIA’s statement
of net cost for the year ended September 30, 2000 presented fairly, in all material
respects, its net cost of operations in conformity with accounting principles generally
accepted in the United States of America. BIA has restated its statement of net cost for
the year ended September 30, 2000 to conform with the presentation of net cost for the
year ended September 30, 2001. We did not audit the restated statement of net cost for
the year ended September 30, 2000, and accordingly, we do not express an opinion on
this statement and related notes.




Roger La Rouche
Assistant Inspector General for Audits
May 11, 2001, except for Note 14
as to which the date is January 21, 2002
